HHS/OIG, Audit -"Review of New Mexicos Personal Needs Allowance for Institutionalized Residents
for the Period July 1, 2000 through September 30, 2004,"(A-06-05-00034)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of New Mexicos Personal Needs Allowance for
Institutionalized Residents for the Period July 1, 2000 through September 30, 2004," (A-06-05-00034)
July 18, 2005
Complete
Text of Report is available in PDF format (118 kb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether New Mexico obtained required approval from the Centers for
Medicare & Medicaid Services (CMS) before increasing the personal needs allowance for institutionalized
residents between July 1, 2000, and September 30, 2004.  From July 1, 2000, through September
30, 2004, the New Mexico Human Services Department (the State agency) increased the monthly personal
needs allowance annually; however, it did not obtain approval from CMS to increase the allowance for
the period July 1, 2001 through September 30, 2004.  As a result of the unapproved increases,
the Federal Medicaid program made $391,651 in additional payments to institutionalized residents.  We
recommended the State agency (1) reimburse the Federal government $391,651 and (2) ensure it submits
a State plan amendment when making Medicaid program changes, such as increasing the personal needs
allowance for institutionalized individuals.  The State agency stated that our report was accurate
and our recommendations were reasonable.